        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
Uranium Enrichment Decontamination
and Decommissioning Fund's Fiscal
Year 2011 Financial Statement Audit




OAS-FS-13-01                     October 2012
   UNITED STATES DEPARTMENT OF ENERGY
  OFFICE OF ENVIRONMENTAL MANAGEMENT
URANIUM ENRICHMENT DECONTAMINATION AND
          DECOMMISSIONING FUND
                Financial Statements

            September 30, 2011 and 2010

    (With Independent Auditors’ Reports Thereon)
                           UNITED STATES DEPARTMENT OF ENERGY
                          OFFICE OF ENVIRONMENTAL MANAGEMENT
                        URANIUM ENRICHMENT DECONTAMINATION AND
                                  DECOMMISSIONING FUND


                                           Table of Contents



                                                                 Page

Overview                                                           1

Independent Auditors’ Report:                                      5

   Exhibit I                                                      10

   Exhibit II                                                     11

   Exhibit III                                                    14

Financial Statements:

   Balance Sheets                                                 15

   Statements of Net Cost                                         16

   Statements of Changes in Net Position                          17

   Statements of Budgetary Resources                              18

Notes to Financial Statements                                     19

Required Supplementary Information                                32
                            UNITED STATES DEPARTMENT OF ENERGY
                           OFFICE OF ENVIRONMENTAL MANAGEMENT
                         URANIUM ENRICHMENT DECONTAMINATION AND
                                   DECOMMISSIONING FUND
                                                    Overview
                                               September 30, 2011
                          Unaudited – See accompanying independent auditors’ report



The Energy Policy Act of 1992 (Energy Policy Act) established the United States (U.S.) Department of Energy’s
(the Department) Uranium Enrichment Decontamination and Decommissioning Fund (D&D Fund) to pay for the
costs of decontaminating and decommissioning three gaseous diffusion facilities (Diffusion Facilities) located in
Oak Ridge, Tennessee; Paducah, Kentucky; and Portsmouth, Ohio. The Energy Policy Act also authorized the
D&D Fund to pay remedial action costs associated with the U.S. Government (Government) operation of the
Diffusion Facilities to the extent funds are available and to reimburse uranium and thorium licensees for the costs
of decontaminating, decommissioning, reclamation, and other remedial actions, which are incident to sales to the
Government.

The Energy Policy Act, as amended, authorizes the collection of revenues for 15 years to pay for the
environmental remediation costs. Balances in the D&D Fund were to be invested in Treasury securities, and any
interest earned would be available to pay the costs of environmental remediation.

The Energy Policy Act, as amended, specifies annual revenues as follows: $480.0 million for the period from
Fiscal Year (FY) 1992 to FY 1998; $488.3 million for the period from FY 1999 to FY 2001; and $518.2 million
for FY 2002 through FY 2007. The revenues are to be obtained from:

•   An assessment on domestic utilities up to $150 million annually based on the ratio of their purchases of
    separative work units to the total purchases from the Department including those for defense; and

•   Government appropriations for the difference between the authorized funding required by the Energy Policy
    Act and the utility assessment.

Government contributions to the D&D Fund were scheduled to end with the FY 2007 contribution. However,
Government appropriations and resulting Government contributions through September 30, 2007 were
approximately $918.6 million less than authorized by the Energy Policy Act. The ability of the D&D Fund to
fulfill its responsibilities is contingent upon the receipt of these contributions. Therefore, the Department
continued to ask Congress for annual Government contributions to meet the Government’s obligation. Congress
provided additional contributions in FYs 2008 and 2009, and also designated $390 million of FY 2009 American
Recovery and Reinvestment Act (ARRA) funding for the D&D Fund’s cleanup mission. These follow-on actions
have satisfied the Government’s original obligation to the D&D Fund. Although the Government satisfied its
original obligation to the D&D Fund in FY 2009, the Department has continued to ask Congress for annual
contributions to help offset lost interest earnings that resulted from the Government not making its required
contributions to the D&D Fund within the prescribed time frame.

The ARRA funding is a separate appropriation from the D&D Fund and is not available for investment in
Treasury securities like the normal D&D Fund appropriations. Therefore, the ARRA funding is neither a deposit
into the D&D Fund nor additional spending authority from the D&D Fund. The ARRA funding does, however,
function as a contribution to the D&D Fund’s cleanup mission by paying for work scope that would otherwise
have to be paid from the D&D Fund. Since the ARRA funding provides a dollar-for-dollar reduction in the
required future outlays from the D&D Fund’s invested balances, the Department recognizes the $390 million of
ARRA funding as an offset to the Government’s contribution shortfall.

                                                        1                                              (Continued)
                            UNITED STATES DEPARTMENT OF ENERGY
                           OFFICE OF ENVIRONMENTAL MANAGEMENT
                         URANIUM ENRICHMENT DECONTAMINATION AND
                                   DECOMMISSIONING FUND
                                                    Overview
                                               September 30, 2011
                          Unaudited – See accompanying independent auditors’ report



The Office of Environmental Management (EM) within the Department is responsible for oversight of the
resources of the D&D Fund and environmental remediation activities at the Diffusion Facilities. The Diffusion
Facilities have approximately 40 million square feet of floor space under 500 acres of roof containing processing
and handling equipment, which will be remediated under the D&D Fund. The Oak Ridge Office, Oak Ridge,
Tennessee, and the Portsmouth/Paducah Project Office, Lexington, Kentucky, provide day-to-day management
of D&D Fund activities. Budgeting, accounting, contracting, and other activities are supported through matrix
organizations in the Department.

The Office of Disposal Operations (EM-43) is responsible for managing the Title X Uranium/Thorium
Reimbursement Program. The Environmental Management Consolidated Business Center (EMCBC) is
responsible for evaluating claims submitted by the uranium and thorium licensees and making reimbursement
recommendations to EM-43. The Defense Contract Audit Agency provides support for financial audits of the
claims.

The Department is currently unable to estimate the impact of certain factors on the recorded liabilities and the
receipt of future Government appropriations by the D&D Fund. More specifically, the following are significant
uncertainties impacting the D&D Fund:

•   Because the decontamination and decommissioning work is scheduled to be completed in approximately
    2020 at the gaseous diffusion facility located in Oak Ridge and the decontamination and decommissioning
    work at the Paducah and Portsmouth gaseous diffusion facilities is currently estimated to extend until 2044,
    the length of time over which the work will be performed creates significant uncertainty as to the actual cost
    of the work. In addition, because the estimates on which the recorded decontamination and decommissioning
    and remedial action liabilities are based do not include an estimate of the impact of inflation on such costs,
    the actual costs may be significantly higher than the recorded liabilities. There is also uncertainty with
    respect to whether Congressional appropriations will be received at the levels assumed by the estimates, and
    there is uncertainty inherent in the estimating process.

•   The Energy Policy Act provides that the annual cost of remedial action at the Diffusion Facilities will be paid
    from the D&D Fund to the extent the amount available in the D&D Fund is sufficient. To the extent the
    amount in the D&D Fund is insufficient to pay remedial action costs, the Energy Policy Act provides that the
    Department will be responsible for such costs. The use of the D&D Fund for remedial action activities will
    impact the availability of funds to accomplish decontamination and decommissioning.

Program Performance Measures

The program performance measures are the current metric for evaluating progress in EM. Under these program
performance measures, environmental restoration progress is measured as the number of “release sites”
completed and the number of “facilities” decommissioned.




                                                        2                                              (Continued)
                             UNITED STATES DEPARTMENT OF ENERGY
                            OFFICE OF ENVIRONMENTAL MANAGEMENT
                          URANIUM ENRICHMENT DECONTAMINATION AND
                                    DECOMMISSIONING FUND
                                                    Overview
                                               September 30, 2011
                          Unaudited – See accompanying independent auditors’ report



A “release site” is defined as a unique location where a hazardous, radioactive, or mixed waste release has
occurred or is suspected to have occurred. It is usually associated with an area where wastes or substances
contaminated with wastes have been disposed of, treated, stored, and/or used. A “facility” is generally defined as
a uniquely identifiable building or structure. Sometimes a facility is a room or part of a building or structure.

A release site is completed or a facility decommissioned when the documentation supporting a “no action”
decision or the completion of physical cleanup has been submitted to regulatory authorities.

The following summarizes the performance measures for D&D Fund projects in FY 2011:
                                                                            Planned            Completed
Release site completion                                                               2                   2   
Facility completion                                                                   2                   1   


The Oak Ridge gaseous diffusion facility completed 2 release sites, which equaled the 2 release sites planned.
Oak Ridge also planned to complete 1 facility, but did not accomplish this facility. The facility was the K-1070-
B Burial Ground, which encountered waste characterization issues and was delayed. The two release sites that
were completed were transferred to the Community Reuse Organization of East Tennessee and removed from the
Oak Ridge EM program. Paducah targeted and completed one facility in FY 2011. Portsmouth did not target the
completion of any facilities or release sites in FY 2011.

Financial Performance Measures

The Department is required to collect payments from appropriations, invest excess cash, and make disbursements
from the D&D Fund in accordance with the requirements of the Energy Policy Act. One financial performance
measure is used to assess performance:

•   No excess uninvested daily cash balances

There were no instances of excessive uninvested daily cash balances during both FY 2011 and FY 2010.

During FY 2011 and FY 2010, the D&D Fund earned approximately 3.01% and 3.39%, respectively, from
investments in Treasury securities.

Financial Statement Limitations

The accompanying financial statements were prepared to report the financial position and results of operations of
the D&D Fund pursuant to the requirement of the Energy Policy Act.




                                                       3                                              (Continued)
                            UNITED STATES DEPARTMENT OF ENERGY
                           OFFICE OF ENVIRONMENTAL MANAGEMENT
                         URANIUM ENRICHMENT DECONTAMINATION AND
                                   DECOMMISSIONING FUND
                                                    Overview
                                               September 30, 2011
                          Unaudited – See accompanying independent auditors’ report



While the statements have been prepared from the books and records of the D&D Fund in accordance with
accounting principles generally accepted in the United States of America, the statements are different from the
financial reports used to monitor and control budgetary resources that are prepared from the same books and
records.

The statements should be read with the realization that they relate to the D&D Fund owned and managed by the
Government, a sovereign entity; that unfunded liabilities reported in the financial statements cannot be liquidated
without the enactment of appropriations; and that the payment of all liabilities, other than those resulting from
contractual obligations, can be abrogated by the Government.

Analysis of Systems, Controls, and Legal Compliance

Analysis of systems, controls, and legal compliance is performed, reported, and audited at the Departmental
level. The results of these reviews and assessments are incorporated in the Department’s Performance and
Accountability Report.

Federal Managers’ Financial Integrity Act

The Federal Managers’ Financial Integrity Act (FMFIA) of 1982 requires that agencies establish internal control
and financial systems to provide reasonable assurances that the integrity of Federal programs and operations are
protected. Furthermore, it requires that the head of the agency provide an annual assurance statement on whether
the agency has met this requirement and whether any material weaknesses exist.

In response to the FMFIA, the Department developed an internal control program that holds managers
accountable for the performance, productivity, operations, and integrity of their programs through the use of
management controls. Annually, senior managers at the Department are responsible for evaluating the adequacy
of the internal controls surrounding their activities and determining whether they conform to the principles and
standards established by the Office of Management and Budget and the Government Accountability Office. The
results of these evaluations and other senior management information are used to determine whether there are
any internal control problems to be reported as material weaknesses. The Departmental Internal Control and
Audit Review Council, the organization responsible for oversight of the Management Control Program, makes
the final assessment and decision for the Department.




                                                        4
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                                        Independent Auditors’ Report


Office of Inspector General and Office of Environmental Management
United States Department of Energy:

We have audited the accompanying balance sheets of the Department of Energy (the Department) Uranium
Enrichment Decontamination and Decommissioning Fund (D&D Fund) as of September 30, 2011 and
2010, and the related statements of net cost, changes in net position, and budgetary resources (hereinafter
referred to as financial statements) for the years then ended. The objective of our audits was to express an
opinion on the fair presentation of these financial statements. In connection with our fiscal year (FY) 2011
audit, we also considered the D&D Fund’s internal controls over financial reporting and tested the D&D
Fund’s compliance with certain provisions of applicable laws, regulations, and contracts that could have a
direct and material effect on these financial statements.

Summary

As stated in our opinion on the financial statements, we concluded that the D&D Fund’s financial
statements as of and for the years ended September 30, 2011 and 2010, are presented fairly, in all material
respects, in conformity with U.S. generally accepted accounting principles.

Our consideration of internal control over financial reporting resulted in identifying certain deficiencies,
related to recording of environmental liabilities, that we consider to be a material weakness, and other
deficiencies, related to unclassified network and information systems security and financial statement
preparation, that we consider to be significant deficiencies, as defined in the Internal Control over
Financial Reporting Section of this report.

The results of our tests of compliance with certain provisions of laws, regulations, and contracts disclosed
no instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards, issued by the Comptroller General of the United States, and Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.

The following sections discuss our opinion on the D&D Fund’s financial statements; our consideration of
the D&D Fund’s internal control over financial reporting; our tests of the D&D Fund’s compliance with
certain provisions of applicable laws, regulations, and contracts; and management’s and our
responsibilities.

Opinion on the Financial Statements

We have audited the accompanying balance sheets of the D&D Fund as of September 30, 2011 and 2010
and the related statements of net cost, changes in net position, and budgetary resources for the years then
ended.




                                                           5
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the D&D Fund as of September 30, 2011 and 2010, and its net costs, changes in
net position, and budgetary resources for the years then ended, in conformity with U.S. generally
accepted accounting principles.

As discussed in note 4 to the financial statements, the D&D Fund has recorded a liability of
approximately $14,091 million and $14,177 million at September 30, 2011 and 2010, respectively, to
decontaminate and decommission the gaseous diffusion facilities (Diffusion Facilities) located in Oak
Ridge, Tennessee; Paducah, Kentucky; and Portsmouth, Ohio. However, the Department is presently
unable to determine the impact of time and inflation on the liability for decontamination and
decommissioning costs. Because the decontamination and decommissioning work at the gaseous
diffusion facility located in Oak Ridge is scheduled to be completed in FY 2020 and the
decontamination and decommissioning work at the Paducah and Portsmouth gaseous diffusion
facilities is currently estimated to extend until 2044, the length of time over which the work will be
performed and the uncertainty inherent in the estimating process create significant uncertainty as to the
actual cost of the work. In addition, because the estimate on which the recorded liability is based does
not include an estimate of the impact of inflation on such costs, the actual costs may be significantly
higher than the recorded liability.

As discussed in note 5 to the financial statements, the Energy Policy Act of 1992 (Energy Policy Act)
provides for payment from the D&D Fund of the annual cost of remedial action at the Diffusion
Facilities to the extent the amount available in the D&D Fund is sufficient. To the extent the amount
available in the D&D Fund is insufficient to pay remedial action costs, the Energy Policy Act provides
that the Department, not the D&D Fund, will be responsible for such costs. Because the Department
may be responsible for remedial action costs, the D&D Fund’s recorded liability for remedial action at
September 30, 2011 consists of the funding for such costs provided by Congress in the D&D Fund
appropriation for FY 2012, $76 million, plus the unexpended portion of such appropriations for current
and previous fiscal years, $14 million. The D&D Fund’s recorded liability for remedial action at
September 30, 2010 consists of the funding for such costs provided by Congress in the D&D Fund
appropriation for FY 2011, $128 million, plus the unexpended portion of such appropriations for
current and previous fiscal years, $29 million. The D&D Fund will make additional accruals of
remedial action costs if Congress appropriates additional funds for that purpose. The estimated future
cost of remedial action at the Diffusion Facilities, which is only recorded in the accompanying
financial statements to the extent described above, is approximately $2,668 million and $2,224 million
as of September 30, 2011 and 2010, respectively. The remaining liability for the estimated future cost
of remedial action at the Diffusion Facilities is recorded by the Department. The estimate does not
include an estimate of the impact of inflation on the cost of the work; therefore, the actual cost may be
significantly higher than the estimate. There is also uncertainty with respect to whether Congressional
appropriations will be received at the level assumed by the estimate, and there is uncertainty inherent in
the estimating process. The Department is presently unable to determine the impact of these factors on
the estimated remedial action costs.

The information in the Overview and Required Supplementary Information sections is not a required
part of the financial statements, but is supplementary information required by U.S. generally accepted
accounting principles. We have applied certain limited procedures, which consisted principally of
inquiries of management regarding the methods of measurement and presentation of this information.
However, we did not audit this information, and accordingly, we express no opinion on it.




                                                  6
Internal Control over Financial Reporting

Our consideration of internal control over financial reporting was for the limited purpose described in
the Responsibilities section of this report and was not designed to identify all deficiencies in the
internal control over financial reporting that might be significant deficiencies or material weaknesses,
and therefore, there can be no assurance that all deficiencies, significant deficiencies, or material
weaknesses have been identified. However, in our fiscal year 2011 audit, we identified certain
deficiencies in internal control over financial reporting that we consider to be material weaknesses and
other deficiencies that we consider to be significant deficiencies.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a
combination of deficiencies, in internal control such that there is a reasonable possibility that a material
misstatement of the D&D Fund’s financial statements will not be prevented, or detected and corrected,
on a timely basis. We consider the deficiency described below and in more detail in Exhibit I to be a
material weakness.

•   Environmental Liabilities – We identified deficiencies in the D&D Fund’s management review
    procedures to prevent and detect errors and omissions in the environmental liabilities. These
    deficiencies resulted in material misstatements of the environmental liabilities that were corrected
    in the FY 2011 financial statements. The D&D Fund should establish additional control
    procedures related to recording of environmental liabilities to ensure that recorded amounts are
    accurate, complete, and supported by appropriate documentation.
A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less
severe than a material weakness, yet important enough to merit attention by those charged with
governance. We consider the deficiencies described below and in more detail in Exhibit II to be
significant deficiencies.

•   Unclassified network and information systems security – We noted network vulnerabilities and
    weaknesses in access and other security controls in the Department’s unclassified computer
    information systems. The identified weaknesses and vulnerabilities increase the risk that malicious
    destruction or alteration of data or unauthorized processing could occur. The Department should
    fully implement policies and procedures to improve its network and information systems security.
•   Statement of Budgetary Resources – We identified deficiencies in the D&D Fund’s internal
    control over preparation of the Statement of Budgetary Resources (SBR). The Change in
    Obligated Balance section of the FY 2010 SBR did not include the recovery of prior year
    obligations, and the amount was corrected in the FY 2011 financial statements. The identified
    deficiencies increase the risk that the D&D Fund’s financial statements could be misstated and not
    be prevented or detected by the D&D Fund’s internal controls. The D&D Fund should implement
    review procedures to ensure that the D&D Fund’s SBR amounts agree with the SF-133 and are
    properly stated in the D&D Fund’s financial statements.
Exhibit III presents the status of prior year significant deficiencies.

We noted certain additional matters involving internal control over financial reporting that we will
report to management in a separate letter.




                                                    7
Compliance and Other Matters

The results of our tests of compliance as described in the Responsibilities section of this report
disclosed no instances of noncompliance or other matters that are required to be reported under
Government Auditing Standards or OMB Bulletin No. 07-04, as amended.

                                              *******

Responsibilities

Management’s Responsibilities: Management is responsible for the financial statements; establishing
and maintaining effective internal control; and complying with laws, regulations, and contracts
applicable to the D&D Fund.

Auditors’ Responsibilities: Our responsibility is to express an opinion on the FY 2011 and FY 2010
financial statements of the D&D Fund based on our audits. We conducted our audits in accordance
with auditing standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States; and OMB Bulletin No. 07-04, as amended. Those standards and OMB Bulletin
No. 07-04, as amended, require that we plan and perform the audits to obtain reasonable assurance
about whether the financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that
are appropriate in the circumstances, but not for the purpose of expressing an opinion on the
effectiveness of the D&D Fund’s internal control over financial reporting. Accordingly, we express no
such opinion.

An audit also includes:

•   Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
    statements;
•   Assessing the accounting principles used and significant estimates made by management; and
•   Evaluating the overall financial statement presentation.

We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2011 audit, we considered the D&D Fund’s internal control
over financial reporting by obtaining an understanding of the D&D Fund’s internal control,
determining whether internal controls had been placed in operation, assessing control risk, and
performing tests of controls as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the financial statements but not for the purpose of expressing an opinion on
the effectiveness of the D&D Fund’s internal control over financial reporting. Accordingly, we do not
express an opinion on the effectiveness of the D&D Fund’s internal control over financial reporting.
Furthermore, we did not test all controls relevant to operating objectives as broadly defined by the
Federal Managers’ Financial Integrity Act of 1982.

As part of obtaining reasonable assurance about whether the D&D Fund’s fiscal year 2011 financial
statements are free of material misstatement, we performed tests of the D&D Fund’s compliance with
certain provisions of laws, regulations, and contracts, noncompliance with which could have a direct
and material effect on the determination of the financial statement amounts, and certain provisions of
other laws and regulations specified in OMB Bulletin No. 07-04, as amended. We limited our tests of
compliance to the provisions described in the preceding sentence, and we did not test compliance with
all laws, regulations, and contracts applicable to the D&D Fund. However, providing opinion on
compliance with laws, regulations, and contracts was not an objective of our audit, and accordingly, we
do not express such an opinion.
                                                 8
The D&D Fund’s responses to the findings identified in our audit are presented in Exhibit I and Exhibit
II. We did not audit the D&D Fund’s responses, and accordingly, we express no opinion on them.

This report is intended solely for the information and use of the D&D Fund’s management, the
Department’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




September 7, 2012




                                                9
                                                                                                 Exhibit I

                                     Independent Auditors’ Report
                                     Exhibit I – Material Weakness

Environmental Liability Estimates (Finding 10-EM-01)

We identified deficiencies in the Decontamination and Decommissioning (D&D) Fund’s internal controls
over recording environmental liabilities related to decontamination and decommissioning and remedial
action. The control deficiencies resulted in misstatements of environmental liabilities that were corrected
in the FY 2011 financial statements. The misstatements were caused by spreadsheet errors and omissions
of adjustments related to the Portsmouth Paducah Project Office (PPPO) environmental liability estimates.
PPPO incorrectly calculated the contingency amount for the D&D and Remedial Action liability estimates.
PPPO also did not include in their calculation two adjustments for pending baseline change proposals that
should have reduced the D&D liability.

The sum of these errors resulted in an overstatement of the D&D liability of approximately $171 million in
the D&D Fund financial statements and an understatement of the Future Remedial Action footnote
disclosure of approximately $175 million in the notes to the D&D Fund financial statements as of
September 30, 2011. We also noted during the FY 2010 audit, that the D&D Fund overstated the D&D
liability by approximately $26 million as of September 30, 2010 due to spreadsheet errors.

Recommendation

We recommend that the D&D Fund Manager, in conjunction with the Financial Management Analyst at
PPPO, strengthen and follow established procedures and controls related to recording of environmental
liabilities to ensure that recorded amounts are accurate, complete, and supported by appropriate
documentation.

Management Response
Management concurs with the recommendation. DOE corrected the specific errors for FY 2011 when
KPMG notified management of the errors. Going forward, DOE staff at ORO and PPPO will work to
strengthen the process for calculating environmental liabilities by developing additional analytical checks
of the calculations.




                                                10
                                                                                                 Exhibit II

                                     Independent Auditors’ Report
                                   Exhibit II – Significant Deficiencies

Unclassified Network and Information Systems Security (Finding numbers reported separately in
DOE consolidated financial statement management letter – information technology dated
December 20, 2011)

The United States Department of Energy (Department or DOE) uses a series of interconnected unclassified
networks and information systems. Federal and Departmental directives require the establishment and
maintenance of security over unclassified information systems, including financial management systems.
Past audits identified significant weaknesses in selected systems and devices attached to the computer
networks at some Department sites. The Department has implemented corrective actions to address many
of the identified weaknesses at the sites whose security controls we, and the Department’s Office of Health,
Safety and Security, reviewed in prior years. However, at the time of our testing, these corrective actions
had not been completed. The frequency of network security weaknesses reported by KPMG LLP has
increased when compared to the prior year weaknesses, although the severity of these weaknesses remains
consistent with prior year weaknesses. The Department recognizes the need to enhance its unclassified
cyber security program and has categorized unclassified cyber security as a leadership challenge in its
Federal Managers’' Financial Integrity Act assurance statement for fiscal year 2011. Improvements are
still needed in the areas of system and application access and related access privileges, password
management, configuration management, and restriction of network services.

Our fiscal year 2011 audit disclosed information system security deficiencies similar in type and risk level
to our findings in prior years. Specifically, we noted weaknesses within layered security controls for
network servers, desktop systems, and business applications. We identified multiple instances of easily
guessed login credentials or unrestricted access controls on network systems that could permit
unauthorized access to those systems and their data. We also found weak account management and
monitoring controls for approval, provisioning, and termination of administrative and user accounts that
may increase the risk of malicious or unauthorized access to systems and data.

In the area of configuration and vulnerability management, we identified deficiencies in the patch
management process for timely and secure installation of critical software patches, with numerous
instances in which security patches had not been applied to correct known vulnerabilities more than three
months after the patches became available. We also noted numerous weaknesses in Web application
integrity as a result of design flaws in those applications. We identified Web applications that did not
properly validate input data or utilize safe database queries, which could result in unauthorized access to
application functionality, sensitive data stored in the applications, and other network systems and
applications.

While many of these cyber security weaknesses were corrected immediately after we identified and
reported them to site management, deficiencies in the process for identifying, monitoring, and remediating
such deficiencies have continued from prior years. We also identified inconsistent risk management
practices at several sites and noted that site management had not established a risk acceptance process to
fully document acceptance of risk. We further noted that multiple sites were continuing to develop and
implement the Department’s revised risk management framework to address these weaknesses. However,
these risk management enhancements were incomplete at the time of our testing.




                                                11
                                                                                       Exhibit II, Continued

                                      Independent Auditors’ Report
                                    Exhibit II – Significant Deficiencies

The Department’s Office of Inspector General (OIG) reported on these deficiencies in its evaluation report
on The Department’s Unclassified Cyber Security Program – 2011, dated October 20, 2011. The OIG
noted that identified weaknesses occurred, in part, because Departmental entities had not ensured that
cyber security requirements included all necessary elements and were properly implemented. The OIG
reported that program elements did not always utilize effective performance monitoring activities to ensure
that appropriate security controls were in place. The OIG also reported deficiencies in configuration
management programs at several sites where, even when policies and procedures were established,
implementation of those policies and procedures was sometimes inconsistent. At other sites, policies were
not aligned with Federal requirements related to access controls and vulnerability and configuration
management.

The identified vulnerabilities and control weaknesses in unclassified network and information systems
increase the possibility that malicious destruction or alteration of data or unauthorized processing could
occur. Because of our concerns, we performed supplemental procedures and identified compensating
controls that mitigate the potential effect of these security weaknesses on the integrity, confidentiality, and
availability of data in the Department’s financial applications.

During fiscal year 2011, the Department had taken steps to enhance its unclassified cyber security
program, including oversight of continuing cyber security reform efforts from the Computer Security
Governance Council at the Under Secretary level; issuance of additional guidance related to continuous
monitoring and assessment of the risk management process in the new cyber directive, DOE Order 205.1B,
Department of Energy Cyber Security Program; and development of a cyber security management
architecture framework to support the Department’s mission-based risk management approach.

Recommendation

Because the D&D Fund does not have the ability to affect changes on the Department’s network security,
no further action is needed by the D&D Fund other than to monitor the progress of the Office of the Chief
Information Officer (OCIO). While some progress has been made, continued efforts are needed to
effectively manage the evolving nature of cyber security threats, including strengthening the management
review process and monitoring of field sites to ensure the adequacy of cyber security program
performance; fully implementing revised and ongoing risk management processes; and expanding the use
of automated tools in the resolution of the vulnerabilities and control weaknesses described above to ensure
that systems are properly configured, implemented, and updated throughout the lifetime of those systems.

Therefore, we recommend that the Under Secretary for Nuclear Security, Under Secretary of Energy, and
Under Secretary for Science, in coordination with the Department and National Nuclear Security
Administration Chief Information Officers, fully implement policies and procedures to ensure that the
Federal cyber security standards are met, that networks and information systems are adequately protected
against unauthorized access, and that an adequate performance monitoring program is implemented, such
as the use of periodic evaluations by Headquarters management, to ensure the effectiveness of sites’ cyber
security program implementation. Detailed recommendations to address the issues discussed above have
been separately reported to the cognizant management officials.

Management Response

Management concurs with the recommendation as presented, with the recognition that the Department’s
OCIO is the lead office in affecting change on the Department’s information systems.
                                                 12
                                                                                  Exhibit II, Continued

                                    Independent Auditors’ Report
                                  Exhibit II – Significant Deficiencies

Statement of Budgetary Resources (Finding 11-DD-F-01)

We identified deficiencies in the D&D Fund’s internal controls over preparation of the D&D Fund
financial statements, specifically the Statement of Budgetary Resources (SBR). The control deficiencies
resulted in a misstatement of Unpaid Obligations, Net that was corrected in the FY 2011 financial
statements.

The Change in Obligated Balance section of the 2010 D&D Fund Statement of Budgetary Resources did
not include the recovery of prior year obligations of $142 million. As such, the Unpaid Obligations, Net,
End of Period did not agree to the FY 2010 SF 133. D&D Fund personnel inadvertently omitted the line
item for Recoveries of Prior Year Obligations from the FY 2010 SBR. The amount was properly included
in the Budgetary Resources section of the SBR.

The D&D Fund overstated the Obligated Balance, Net, End of Period by approximately $142 million at
September 30, 2010 on the D&D Fund SBR. Management corrected the balance by recording the
recoveries of prior year obligations in FY 2011.

Recommendation

We recommend that the Director, Office of Financial Control and Reporting implement review procedures
to ensure that the D&D Fund SBR agrees with the SF-133 at each year-end and amounts are properly
stated in the D&D Fund financial statements.

Management Response

Management concurs with the recommendation. Review procedures, including additional tie-points in the
statements for the SBR, will be implemented.




                                               13
                                                                                            Exhibit III

                                  Independent Auditors’ Report
                             Exhibit III – Status of Prior Year Finding


           Significant deficiency from FY
              2010 (with parenthetical
          disclosure of year first reported)                   Status at September 30, 2011
Unclassified Information System Security (2001)         Reported in Exhibit I as a significant
                                                          deficiency for FY 2011




                                               14
                            UNITED STATES DEPARTMENT OF ENERGY
                           OFFICE OF ENVIRONMENTAL MANAGEMENT
                         URANIUM ENRICHMENT DECONTAMINATION AND
                                   DECOMMISSIONING FUND
                                                   Balance Sheets
                                         As of September 30, 2011 and 2010
                                                   (In thousands)


                                  Assets                                       2011            2010
Entity assets:
  Intragovernmental:
      Fund balance with treasury                                        $        74,016         200,218   
      Investments, net                                                        4,543,751       4,924,638   
      Accrued interest receivable                                                44,218          49,980   
      Other intergovernmental assets                                             51,173              —    
              Total entity assets                                       $     4,713,158       5,174,836   
                     Liabilities and Net Position
Liabilities covered by budgetary resources:
   Decontamination and decommissioning                                  $        61,672         217,763   
   Remedial action                                                               14,103          29,071   
   Uranium and thorium licensee claims                                           15,003          24,375   
   Accounts payable and other accruals                                          145,550         145,013   
   DOE interfund accounts payable                                                 1,414           9,431   
              Total funded liabilities                                          237,742         425,653   
Liabilities not covered by budgetary resources:
   Decontamination and decommissioning                                       14,029,569      13,959,512   
   Remedial action                                                               75,805         128,418   
   Uranium and thorium licensee claims                                          194,361         191,222   
              Total unfunded liabilities                                     14,299,735      14,279,152   
              Total liabilities                                              14,537,477      14,704,805   
Net position:
  Unexpended appropriations – other funds                                        50,245         175,306   
  Cumulative results of operations – earmarked funds                         (9,874,564)     (9,705,275)  
              Total net position                                             (9,824,319)     (9,529,969)  
              Total liabilities and net position                        $     4,713,158       5,174,836   


See accompanying notes to financial statements.




                                                        15
                            UNITED STATES DEPARTMENT OF ENERGY
                           OFFICE OF ENVIRONMENTAL MANAGEMENT
                         URANIUM ENRICHMENT DECONTAMINATION AND
                                   DECOMMISSIONING FUND
                                              Statements of Net Cost
                             For the fiscal years ended September 30, 2011 and 2010
                                                      (In thousands)


                                                                               2011          2010
Environmental quality program costs:
  Decontamination and decommissioning                                  $        619,171       692,961   
  Storage and disposition                                                        21,093        44,301   
  Uranium and thorium licensee claims                                             9,287        13,836   
Postclosure liability administration                                             18,722        20,399   
               Net program costs                                                668,273       771,497   
Cost applied to the reduction of legacy liabilities                            (655,128)     (741,788)  
Costs not assigned                                                              679,750       966,949   
Exchange revenues                                                              (316,844)     (241,867)  
               Net cost of operations                                  $        376,051       754,791   


See accompanying notes to financial statements.




                                                           16
                                                     UNITED STATES DEPARTMENT OF ENERGY
                                                    OFFICE OF ENVIRONMENTAL MANAGEMENT
                                                  URANIUM ENRICHMENT DECONTAMINATION AND
                                                            DECOMMISSIONING FUND
                                                               Statements of Changes in Net Position
                                                       For the fiscal years ended September 30, 2011 and 2010
                                                                           (In thousands)


                                                                                                                                2011
                                                                                                           Earmarked
                                                                                                             funds           Other funds        Total
Cumulative results of operations:
  Beginning balance                                                                                    $    (9,705,275)                —       (9,705,275)  
Budgetary financing sources:
  Appropriations used                                                                                                —           125,061         125,061   
  Net transfers in without reimbursement                                                                         40,413               —           40,413   
Other financing sources:
  Imputed financing from costs absorbed by others                                                                  7,655               —            7,655   
  Other appropriations transferred from DOE, net of adjustments                                                   33,633               —           33,633   
              Total financing sources                                                                            81,701          125,061         206,762   
Net cost of operations                                                                                       (250,990)          (125,061)       (376,051)  
              Net change                                                                                     (169,289)                 —        (169,289)  
              Total cumulative results of operations                                                        (9,874,564)                —       (9,874,564)  
Unexpended appropriations:
  Beginning balance                                                                                                 —            175,306         175,306   
Budgetary financing sources:
  Appropriations used                                                                                               —            (125,061)      (125,061)  
  Appropriations transferred                                                                                        —                —                —    
              Total budgetary financing sources                                                                      —          (125,061)       (125,061)  
              Total unexpended appropriations                                                                        —            50,245           50,245   
              Net position                                                                             $    (9,874,564)           50,245       (9,824,319)  


                                                                                                                                2010
                                                                                                           Earmarked
                                                                                                             funds           Other funds        Total
Cumulative results of operations:
  Beginning balance                                                                                    $    (9,612,465)                —       (9,612,465)  
Budgetary financing sources:
  Appropriations used                                                                                                —           164,463         164,463   
  Net transfers in without reimbursement                                                                         25,096               —           25,096   
Other financing sources:
  Imputed financing from costs absorbed by others                                                                  9,422               —           9,422   
  Other appropriations transferred from DOE, net of adjustments                                                  463,000               —         463,000   
              Total financing sources                                                                           497,518          164,463         661,981   
Net cost of operations                                                                                       (590,328)          (164,463)       (754,791)  
              Net change                                                                                        (92,810)               —          (92,810)  
              Total cumulative results of operations                                                        (9,705,275)                —       (9,705,275)  
Unexpended appropriations:
  Beginning balance                                                                                                 —            340,769         340,769   
Budgetary financing sources:
  Appropriations used                                                                                               —            (164,463)      (164,463)  
  Appropriations transferred                                                                                        —              (1,000)        (1,000)  
              Total budgetary financing sources                                                                      —          (165,463)       (165,463)  
              Total unexpended appropriations                                                                        —           175,306         175,306   
              Net position                                                                             $    (9,705,275)          175,306       (9,529,969)  


See accompanying notes to financial statements.




                                                                                 17
                            UNITED STATES DEPARTMENT OF ENERGY
                           OFFICE OF ENVIRONMENTAL MANAGEMENT
                         URANIUM ENRICHMENT DECONTAMINATION AND
                                   DECOMMISSIONING FUND
                                       Statements of Budgetary Resources
                            For the fiscal years ended September 30, 2011 and 2010
                                                  (In thousands)


                                                                              2011          2010
Budgetary resources:
  Unobligated balance brought forward, October 1                      $         10,298        53,124   
  Recovery of prior year obligations                                                22       142,332   
  Budget authority, appropriation                                              508,000       573,850   
  Temporarily not available pursuant to public law                             (10,916)       (1,000)  
              Total budgetary resources                               $        507,404       768,306   
Status of budgetary resources:
   Obligations incurred – direct                                      $        507,324       758,008   
   Unobligated balance available                                                    58        10,298   
   Apportioned for subsequent periods                                               22            —    
              Total status of budgetary resources                     $        507,404       768,306   
Change in obligated balance:
  Unpaid obligations, brought forward, October 1                      $        564,685       540,565   
  Obligations incurred                                                         507,324       758,008   
  Less gross outlays                                                          (688,149)     (733,888)  
  Recovery of prior year obligations                                          (142,354)           —    
              Unpaid obligations, net, end of period                  $        241,506       564,685   
Outlays:
  Gross outlays                                                       $        688,149       733,888   
     Less distributed offsetting receipts                                     (173,860)     (586,366)  
              Net outlays                                             $        514,289       147,522   


See accompanying notes to financial statements.




                                                       18
                            UNITED STATES DEPARTMENT OF ENERGY
                           OFFICE OF ENVIRONMENTAL MANAGEMENT
                         URANIUM ENRICHMENT DECONTAMINATION AND
                                   DECOMMISSIONING FUND
                                          Notes to Financial Statements
                                          September 30, 2011 and 2010



(1)   Summary of Significant Accounting Policies
      (a)   Reporting Entity
            The Energy Policy Act of 1992 (Energy Policy Act) requires the United States (U.S.) Department of
            Energy (the Department) to retain responsibility for the costs of environmental remediation resulting
            from the U.S. Government’s (Government) operation of the three gaseous diffusion facilities
            (Diffusion Facilities) located in Oak Ridge, Tennessee; Paducah, Kentucky; and Portsmouth, Ohio,
            prior to that date.

            The Energy Policy Act established the Uranium Enrichment Decontamination and Decommissioning
            Fund (D&D Fund) within the Department as of October 24, 1992 to pay for the costs of
            decontaminating and decommissioning the Diffusion Facilities (note 4). The Energy Policy Act
            further provides that the D&D Fund will reimburse licensees operating uranium or thorium
            processing sites for the costs of environmental remediation at those sites, subject to maximum
            reimbursement limits (note 6). The Energy Policy Act, as amended, also provides for payment of the
            costs of remedial action at the Diffusion Facilities, to the extent that the amount available in the
            D&D Fund is sufficient (note 5). To pay for these activities, the Energy Policy Act and subsequent
            legislation authorized funding over a 15-year period, adjusted annually using the Consumer Price
            Index for All Urban Consumers (Consumer Price Index), as published by the Department of Labor.
            The funding is to be obtained from Government appropriations (note 7) and from assessments on
            domestic utilities that were completed in Fiscal Year (FY) 2007.

            Government contributions to the Fund were scheduled to end with the FY 2007 contribution.
            However, Government appropriations and resulting Government contributions through
            September 30, 2007 were approximately $918.6 million less than authorized by the Energy Policy
            Act. The ability of the D&D Fund to fulfill its responsibilities is contingent upon the receipt of these
            contributions. Therefore, the Department continued to ask Congress for annual Government
            contributions to meet the Government’s obligation. Congress provided additional contributions in
            FYs 2008 and 2009, and also designated $390 million of FY 2009 American Recovery and
            Reinvestment Act (ARRA) funding for the Fund’s cleanup mission. These follow-on actions have
            satisfied the Government’s original obligation to the Fund.

            The ARRA funding is a separate appropriation from the D&D Fund and is not available for
            investment in Treasury securities like the normal D&D Fund appropriations. Therefore, the ARRA
            funding is neither a deposit into the Fund nor additional spending authority from the Fund. The
            ARRA funding, however, does function as a contribution to the Fund’s cleanup mission by paying
            for work scope that would otherwise have to be paid from the D&D Fund. Since the ARRA funding
            provides a dollar-for-dollar reduction in the required future outlays from the D&D Fund’s invested
            balances, the Department recognizes the $390 million of ARRA funding as an offset to the
            Government’s contribution shortfall.




                                                       19                                               (Continued)
                      UNITED STATES DEPARTMENT OF ENERGY
                     OFFICE OF ENVIRONMENTAL MANAGEMENT
                   URANIUM ENRICHMENT DECONTAMINATION AND
                             DECOMMISSIONING FUND
                                    Notes to Financial Statements
                                    September 30, 2011 and 2010



      Since the Department considers the D&D Fund as an entity to be broader than just the invested
      balances with Treasury, the financial statement amounts capture both the traditional D&D Fund
      appropriation and these designated ARRA funds.

(b)   Basis of Presentation
      These financial statements have been prepared from the accounting records of the D&D Fund in
      conformance with accounting principles generally accepted in the United States of America.

      The Department’s expenses are summarized in its statement of net cost by business line. The
      Environmental Quality business line includes, among other activities, all D&D Fund expenses. The
      purpose of environmental quality activities is to understand and reduce environmental, safety, and
      health risks and threats and to develop the technologies and institutions required for solving domestic
      and global environmental problems.

      The Department’s headquarters, field offices, and the management and integrating (M&I) contractor
      (at Oak Ridge) and non-integrating contractors conducting environmental remediation activities at
      the Department’s facilities discussed in note 1(a) record D&D Fund activity in their accounting
      systems. The M&I contractor integrates its accounting system with the Department through the use
      of reciprocal accounts. The M&I contractor is required to comply with Departmental accounting
      practices and procedures, which provide for the unique identification of D&D Fund transactions.
      These financial statements are prepared by extracting and adjusting D&D Fund-related data from the
      financial records of the Department and the M&I contractor.

(c)   Basis of Accounting
      The D&D Fund’s financial statements are prepared using the accrual method of accounting. The
      accrual method of accounting requires recognition of the financial effects of transactions, events, and
      circumstances in the periods when those transactions, events, and circumstances occur, regardless of
      when cash is received or paid. The D&D Fund also uses budgetary accounting to facilitate
      compliance with legal constraints and to monitor its budget authority at the various stages of
      execution, including allotment, obligation, and eventual outlay.

(d)   Earmarked Funds
      The D&D Fund has adopted Statement of Federal Financial Accounting Standards (SFFAS) No. 27,
      Identifying and Reporting Earmarked Funds, which requires separate identification of earmarked
      funds on the balance sheets, statements of changes in net position, and in the notes. Earmarked funds
      are financed by specifically identified revenues, often supplemented by other financing sources,
      which remain available over time. These specifically identified revenues and other financing sources
      are required by statute to be used for designated activities, benefits, or purposes, and must be
      accounted for separately from the Government’s general revenues.




                                                 20                                              (Continued)
                       UNITED STATES DEPARTMENT OF ENERGY
                      OFFICE OF ENVIRONMENTAL MANAGEMENT
                    URANIUM ENRICHMENT DECONTAMINATION AND
                              DECOMMISSIONING FUND
                                   Notes to Financial Statements
                                   September 30, 2011 and 2010



(e)   Fund Balance with Treasury
      Funds with the Treasury primarily represent funds left uninvested on the last day of the fiscal year
      (September 30) to cover any unanticipated disbursements that occur after the September 30
      overnight investment has been made with Treasury. This approach helps the D&D Fund avoid
      ending the fiscal year with a negative cash balance due to unanticipated disbursements.

(f)   Investments
      The Energy Policy Act requires the D&D Fund to invest in Treasury obligations. The D&D Fund’s
      investments in Treasury securities are classified as held-to-maturity. Held-to-maturity securities are
      those securities that the D&D Fund has the ability and intent to hold until maturity. Held-to-maturity
      securities are recorded at amortized cost, adjusted for the amortization or accretion of premiums or
      discounts. Premiums and discounts are amortized or accreted over the life of the related security as
      an adjustment to yield using the effective-interest method. Realized gains and losses for securities
      classified as held-to-maturity are included in earnings and are derived using the
      specific-identification method for determining the cost of securities sold.

(g)   Plant and Equipment
      Plant and equipment acquired by the D&D Fund are charged to operations when purchased, unless
      the plant or equipment will be used for purposes other than environmental remediation. All plant and
      equipment held by the D&D Fund at September 30, 2011 and 2010 are used in environmental
      remediation.

(h)   Environmental Remediation Liabilities
      The D&D Fund’s environmental remediation liabilities are recorded at current cost, which is the
      amount that would be paid if all equipment, facilities, and services included in the related cost
      estimates were acquired during the current period. Each fiscal year, the liabilities are increased for
      inflation, reduced by current expenditures, and adjusted for estimated cost increases or decreases.

(i)   Government Appropriations
      Government appropriations are recognized at the later of the beginning of each fiscal year, when
      appropriations may be apportioned to the Department by the Office of Management and Budget
      (OMB), or the date the appropriations legislation is signed into law.

(j)   Imputed Costs and Financing Sources
      Certain salaries, employee benefits, and other costs allocable to the D&D Fund are funded under
      separate appropriations, and are included in the accompanying financial statements through
      allocations by entities outside the D&D Fund in accordance with SFFAS No. 4, Managerial Cost
      Accounting Concepts for the Federal Government. An equivalent amount is included in imputed
      financing.


                                                21                                              (Continued)
                            UNITED STATES DEPARTMENT OF ENERGY
                           OFFICE OF ENVIRONMENTAL MANAGEMENT
                         URANIUM ENRICHMENT DECONTAMINATION AND
                                   DECOMMISSIONING FUND
                                          Notes to Financial Statements
                                          September 30, 2011 and 2010



      (k)   Use of Estimates
            The preparation of financial statements in conformity with accounting principles generally accepted
            in the United States of America requires management to make estimates and assumptions that affect
            the reported amounts of assets and liabilities and disclosure of contingent assets and liabilities at the
            date of the financial statements and the reported amounts of revenues and expenses during the
            reporting period. Actual results could differ from those estimates.

      (l)   Tax Status
            The D&D Fund, as a Federal entity, is not subject to Federal, state, or local income taxes.
            Accordingly, no provision for income taxes is recorded in the accompanying financial statements.

(2)   Fund Balance with Treasury
      A summary of the status of fund balances with the U.S. Treasury for appropriated funds as of
      September 30, 2011 and 2010 is as follows (in thousands):

                                                                                  2011                 2010
      Unobligated budgetary resources:
        Available                                                         $              58              10,298   
        Unavailable                                                                      22                  —    
      Obligated balance not yet disbursed:
        Undelivered orders                                                         94,541               268,000   
        Accounts payable and other liabilities                                    146,964               154,352   
        Budgetary resources invested in Treasury securities                      (167,569)             (232,432)  
                     Fund balance with Treasury                           $         74,016              200,218   




                                                        22                                               (Continued)
                            UNITED STATES DEPARTMENT OF ENERGY
                           OFFICE OF ENVIRONMENTAL MANAGEMENT
                         URANIUM ENRICHMENT DECONTAMINATION AND
                                   DECOMMISSIONING FUND
                                         Notes to Financial Statements
                                         September 30, 2011 and 2010



(3)   Investments, Net
      The D&D Fund invests in nonmarketable market-based Treasury securities. All Treasury securities held at
      September 30, 2011 and 2010 are classified as held-to-maturity. The components of Treasury securities
      held as of September 30, 2011 and 2010 are as follows (in thousands):
                                                                                  2011              2010
      Face value                                                         $       4,372,476         4,760,922   
      Unamortized premiums                                                         173,534           168,376   
      Unamortized discounts                                                         (2,259)           (4,660)  
                                                                                 4,543,751         4,924,638   
      Unrealized gains                                                            174,077            238,626   
                    Total                                                $       4,717,828         5,163,264   


      The market value of Treasury securities held as of September 30, 2011 and 2010 is as follows
      (in thousands):
                                                                                   2011               2010
      Maturity:
        Maturing within 1 year                                               $    1,171,459            981,563   
        Maturing after 1 year through 5 years                                     3,546,369          4,156,803   
        Maturing after 5 years through 10 years                                          —              24,898   
                    Total                                                    $    4,717,828         5,163,264   


      During FY 2011 and FY 2010, the D&D Fund recognized interest revenue of $142 million and
      $169 million, respectively.

      The Government does not set aside assets to pay for expenditures associated with the funds for which the
      Department holds Treasury securities. These Treasury securities are an asset to the Department and a
      liability to Treasury. Because the Department and Treasury are both parts of the Government, these assets
      and liabilities offset each other from the standpoint of the Government as a whole. For this reason, they do
      not represent an asset or a liability in the Government-wide financial statements.

      Treasury securities provide the Department with authority to draw upon the Treasury to make
      expenditures, subject to available appropriations and OMB apportionments. When the Department requires
      redemptions of these securities, the Government finances those expenditures out of accumulated cash
      balances by raising taxes or other receipts, by borrowing from the public or repaying less debt, or by
      curtailing other expenditures. This is the same way the Government finances all other expenditures.


                                                       23                                             (Continued)
                            UNITED STATES DEPARTMENT OF ENERGY
                           OFFICE OF ENVIRONMENTAL MANAGEMENT
                         URANIUM ENRICHMENT DECONTAMINATION AND
                                   DECOMMISSIONING FUND
                                         Notes to Financial Statements
                                         September 30, 2011 and 2010



(4)   Decontamination and Decommissioning
      The Department’s estimate of the costs to decontaminate and decommission the Diffusion Facilities is
      based on an aggressive contracting strategy intended to maximize cost savings and enhance scheduling
      through the use of performance-based contracts. Environmental remediation, which includes both
      decontamination and decommissioning and remedial action (note 5) activities, will be completed through
      fixed-price contracts where appropriate.

      Changes in the liability for decontamination and decommissioning from October 1, 2009 through
      September 30, 2011 are summarized as follows (in thousands):
      Balance, October 1, 2009                                                               $    14,048,382   
         Provision for inflation                                                                     233,203   
         Decontamination and decommissioning costs incurred                                         (586,739)  
         Adjustment to new cost estimate                                                             482,429   
      Balance, September 30, 2010                                                                 14,177,275   
         Provision for inflation                                                                     199,900   
         Decontamination and decommissioning costs incurred                                         (576,517)  
         Adjustment to new cost estimate                                                             290,583   
      Balance, September 30, 2011                                                            $    14,091,241   


      Of the total liability of $14,091 million for decontamination and decommissioning as of September 30,
      2011, $62 million is covered by appropriations for current and previous fiscal years (budgetary resources)
      and $14,029 million is not covered by budgetary resources. Of the total liability of $14,177 million for
      decontamination and decommissioning as of September 30, 2010, $218 million is covered by
      appropriations for current and previous fiscal years (budgetary resources) and $13,959 million is not
      covered by budgetary resources.

      Approximately $117 million of the FY 2011 costs incurred and approximately $151 million of the
      FY 2010 costs incurred were from ARRA funding rather than the D&D Fund’s investment balances. As of
      September 30, 2011 and 2010, approximately $35 million and $152 million, respectively, of the
      $320 million designated by ARRA for D&D Fund cleanup scope remains available to address the liability.
      These amounts are included in the $62 million and $218 million of budgetary resources at September 30,
      2011 and 2010, respectively, discussed above. Note 1(a) to the financial statements provides additional
      discussion on the ARRA funding.

      Because the decontamination and decommissioning work at the gaseous diffusion facility located in Oak
      Ridge is scheduled to be completed in FY 2020 and the decontamination and decommissioning work at the
      Paducah and Portsmouth gaseous diffusion facilities is currently estimated to extend until 2044, the length
      of time over which the work will be performed and the uncertainty inherent in the estimating process create
      significant uncertainty as to the actual cost of the work. In addition, because the estimate on which the

                                                      24                                             (Continued)
                            UNITED STATES DEPARTMENT OF ENERGY
                           OFFICE OF ENVIRONMENTAL MANAGEMENT
                         URANIUM ENRICHMENT DECONTAMINATION AND
                                   DECOMMISSIONING FUND
                                          Notes to Financial Statements
                                          September 30, 2011 and 2010



      recorded liability is based does not include an estimate of the impact of inflation on such costs, the actual
      costs may be significantly higher than the recorded liability. The Department is presently unable to
      determine the impact of time and inflation on the liability for decontamination and decommissioning costs.

(5)   Remedial Action
      The Energy Policy Act provides that the annual cost of remedial action at the Diffusion Facilities will be
      paid from the D&D Fund to the extent the amount available in the D&D Fund is sufficient. To the extent
      the amount in the D&D Fund is insufficient to pay remedial action costs, the Energy Policy Act provides
      that the Department will be responsible for such costs.

      Because the Energy Policy Act places primary responsibility for remedial action costs with the Department
      if sufficient resources are not available in the D&D Fund, the D&D Fund’s recorded liability for remedial
      action at the end of each fiscal year includes only the funding for such costs provided by Congress in the
      D&D Fund appropriation for the succeeding fiscal year, plus the unexpended portion of such
      appropriations for current and previous fiscal years. The D&D Fund will make additional accruals of
      remedial action costs if Congress appropriates funds for that purpose.

      Changes in the liability for remedial action from October 1, 2009 through September 30, 2011 are
      summarized as follows (in thousands):

      Balance, October 1, 2009                                                                $        164,874   
         Provision for inflation and remedial action costs                                             141,171   
         Remedial action costs incurred                                                               (148,556)  
      Balance, September 30, 2010                                                                      157,489   
         Provision for inflation and remedial action costs                                              15,577   
         Remedial action costs incurred                                                                (83,158)  
      Balance, September 30, 2011                                                             $         89,908   


      Of the total liability of $90 million for remedial action as of September 30, 2011, $14 million is covered by
      budgetary resources and $76 million is not covered by budgetary resources. Of the total liability of
      $157 million for remedial action as of September 30, 2010, $29 million is covered by budgetary resources
      and $128 million is not covered by budgetary resources.

      The estimated future cost of remedial action at the Diffusion Facilities, which is only recorded in the
      accompanying financial statements to the extent described above, is approximately $2,668 million and
      $2,224 million as of September 30, 2011 and 2010, respectively. The remaining liability for the estimated
      future cost of remedial action at the Diffusion Facilities is recorded by the Department. The estimate does
      not include an estimate of the impact of inflation on the cost of the work; therefore, the actual cost may be
      significantly higher than the estimate. There is also uncertainty with respect to whether Congressional
      appropriations will be received at the level assumed by the estimate, and the uncertainty inherent in the

                                                       25                                              (Continued)
                            UNITED STATES DEPARTMENT OF ENERGY
                           OFFICE OF ENVIRONMENTAL MANAGEMENT
                         URANIUM ENRICHMENT DECONTAMINATION AND
                                   DECOMMISSIONING FUND
                                         Notes to Financial Statements
                                         September 30, 2011 and 2010



      estimating process. The Department is presently unable to determine the impact of these factors on the
      estimated remedial action costs.

(6)   Uranium and Thorium Licensee Claims
      The Energy Policy Act, as amended, provides that the D&D Fund will reimburse licensees operating
      uranium or thorium processing sites for the costs of environmental remediation at those sites, subject to
      maximum reimbursements of $350 million for the uranium licensees and $365 million for the thorium
      licensee, plus adjustments for inflation.

      As of September 30, 2011 and 2010, the Department has approved for payment $662 million and
      $653 million, respectively, of uranium and thorium licensee claims, and has paid $628 million and
      $619 million, respectively, to licensees. Approved but unpaid claims will be paid to licensees when
      additional funds are appropriated for that purpose. The Department receives additional claims from
      licensees as remediation occurs, and expects that total reimbursements of uranium and thorium licensee
      claims will reach the limits set by legislation.

      The D&D Fund’s liability for reimbursement of uranium and thorium licensee claims consists of the
      maximum reimbursements authorized by legislation less amounts paid, adjusted annually for inflation.
      Changes in the liability for reimbursement of uranium and thorium licensee claims from October 1, 2009
      through September 30, 2011 are summarized as follows (in thousands):

      Balance, October 1, 2009                                                               $        225,605   
         Provision for inflation                                                                        3,746   
         Claims reimbursed                                                                            (13,754)  
      Balance, September 30, 2010                                                                     215,597   
         Provision for inflation                                                                        3,040   
         Claims reimbursed                                                                             (9,273)  
      Balance, September 30, 2011                                                            $        209,364   


      Of the total liability of $209 million as of September 30, 2011, $15 million is covered by budgetary
      resources and $194 million is not covered by budgetary resources. Of the total liability of $216 million as
      of September 30, 2010, $24 million is covered by budgetary resources and $192 million is not covered by
      budgetary resources.




                                                      26                                             (Continued)
                            UNITED STATES DEPARTMENT OF ENERGY
                           OFFICE OF ENVIRONMENTAL MANAGEMENT
                         URANIUM ENRICHMENT DECONTAMINATION AND
                                   DECOMMISSIONING FUND
                                         Notes to Financial Statements
                                         September 30, 2011 and 2010



      All $9 million of FY 2011 reimbursements and $14 million of FY 2010 reimbursements were paid from
      ARRA funding rather than the D&D Fund’s investment balances. Therefore, approximately $15 million of
      the $70 million designated by ARRA for uranium and thorium reimbursements remains available and
      represents the budgetary resources available at September 30, 2011 to address the $209 million liability.
      Note 1(a) to the financial statements provides additional discussion on the ARRA funding.

(7)   Government Appropriations
      The Energy Policy Act and subsequent amendments require annual Government appropriations to the
      D&D Fund through FY 2007, equal to the difference between authorized funding, adjusted annually for
      inflation using the Consumer Price Index, and the assessment against domestic utilities. Authorized
      funding was initially established at $480.0 million per year by the Energy Policy Act. That amount
      remained unchanged until FY 1999, when legislation increased authorized funding to $488.3 million per
      year. Legislation enacted during FY 2002 increased authorized funding to $518.2 million per year.

      The ability of the D&D Fund to fulfill its responsibilities is contingent upon receipt of funds from these
      sources. The D&D Fund received a payment of $452.0 million in FY 2007 from Defense Environmental
      Restoration and Waste Management. This was the final Government payment authorized by the legislation
      discussed above.

      Cumulative Government appropriations received through FY 2007 of $5,362.4 million were less than the
      full amount authorized by the Energy Policy Act of $6,281.0 million, resulting in funding authorized but
      not received of $918.6 million as of September 30, 2007. The ability of the D&D Fund to fulfill its
      responsibilities is contingent upon the receipt of these contributions. Therefore, the Department continued
      to ask Congress for annual Government contributions to meet the Government’s obligation. Congress
      provided additional contributions in FY 2008 and FY 2009, and also designated $390 million of FY 2009
      ARRA funding for the Fund’s cleanup mission. These follow-on actions have satisfied the Government’s
      original obligation to the Fund.

      The ARRA funding is a separate appropriation from the D&D Fund and is not available for investment in
      Treasury securities like the normal D&D Fund appropriations. Therefore, the ARRA funding is neither a
      deposit into the Fund nor additional spending authority from the Fund. The ARRA funding does, however,
      function as a contribution to the Fund’s cleanup mission by paying for work scope that would otherwise
      have to be paid from the D&D Fund. Since the ARRA funding provides a dollar-for-dollar reduction in the
      required future outlays from the D&D Fund’s invested balances, the Department recognizes the
      $390 million of ARRA funding as an offset to the Government’s contribution shortfall.




                                                      27                                             (Continued)
                            UNITED STATES DEPARTMENT OF ENERGY
                           OFFICE OF ENVIRONMENTAL MANAGEMENT
                         URANIUM ENRICHMENT DECONTAMINATION AND
                                   DECOMMISSIONING FUND
                                         Notes to Financial Statements
                                         September 30, 2011 and 2010



(8)   Pension and Postretirement Benefit Liabilities
      The D&D Fund’s primary integrated contractor maintains a defined benefit pension plan and is a party to
      two defined benefit postretirement (PRB) plans, under which they promise to pay participants specified
      benefits, such as a percentage of the final average pay for each year of service, or a percentage of actual
      medical expenses in retirement. The D&D Fund follows multiemployer accounting for these plans in
      accordance with Statement of Financial Accounting Standards (SFAS) No. 87, Employers’ Accounting for
      Pensions, and SFAS No. 106, Employers’ Accounting for Postretirement Benefits Other Than Pensions.
      The D&D Fund is required to reimburse the contractor for its share of the annual contractor contributions
      to those plans based on planned funding between the EM Defense Funds and the D&D Fund as determined
      by the Department’s budget planning assumptions. Payment of such amounts is included as program cost
      on the statements of net cost. For the years ended September 30, 2011 and 2010, the D&D Fund provided
      funding of approximately $5 million and $6 million to the contractor’s defined benefit pension plan,
      respectively, and $9 million and $8 million related to PRB plans, respectively.




                                                      28                                             (Continued)
                                  UNITED STATES DEPARTMENT OF ENERGY
                                 OFFICE OF ENVIRONMENTAL MANAGEMENT
                               URANIUM ENRICHMENT DECONTAMINATION AND
                                         DECOMMISSIONING FUND
                                                     Notes to Financial Statements
                                                     September 30, 2011 and 2010



(9)   Earmarked Funds
                                                                   FY 2011                                     FY 2010
                                                   Earmarked                                   Earmarked
                                                     funds        Other funds     Total          funds        Other funds       Total
      Balance sheet
         Assets:
            Fund balance with Treasury         $         4,969        69,047         74,016          4,977       195,241          200,218 
            Investments                              4,543,751            —       4,543,751      4,924,638            —         4,924,638 
            Accrued interest receivable                 44,218            —          44,218         49,980            —            49,980 
            Other intergovernmental assets              51,173            —          51,173             —             —                —
                      Total assets             $     4,644,111        69,047      4,713,158      4,979,595       195,241        5,174,836 
         Liabilities and net position:
            Environmental liabilities          $    14,390,513           —       14,390,513     14,550,361            —        14,550,361 
            Accounts payable                           126,748        18,802        145,550        125,083        19,930          145,013 
            Other liabilities                            1,414            —           1,414          9,415            16            9,431 
            Unexpended appropriations                       —         50,245         50,245             —        175,306          175,306 
            Cumulative results of operations        (9,874,564)           —      (9,874,564)    (9,705,264)          (11)      (9,705,275)
                      Total liabilities and
                         net position          $     4,644,111        69,047      4,713,158      4,979,595       195,241        5,174,836 
      Statement of net costs
         Program costs                         $      543,212        125,061       668,273        607,112        164,385         771,497 
         Costs applied to the reduction
            of legacy liabilities                    (655,128)            —       (655,128)      (741,788)            —         (741,788)
         Costs not assigned                           679,750             —        679,750        966,871             78         966,949 
         Exchange revenues                           (316,844)            —       (316,844)      (241,867)            —         (241,867)
                      Net cost of
                         operations            $      250,990        125,061       376,051        590,328        164,463         754,791 
      Statement of changes in net position
         Cumulative results of operations,
            beginning balance                  $    (9,705,275)           —      (9,705,275)    (9,612,465)           —        (9,612,465)
         Appropriations used                                —        125,061        125,061             —        164,463          164,463 
         Net transfers-out without
            reimbursement                               40,413            —          40,413         25,096            —            25,096 
         Imputed financing from costs
            absorbed                                     7,655            —           7,655          9,422            —             9,422 
         Other appropriations transferred
            from DOE                                   33,633             —         33,633        463,000             —          463,000 
         Net cost of operations                      (250,990)      (125,061)     (376,051)      (590,328)      (164,463)       (754,791)
         Cumulative results of operations,
            ending balance                     $    (9,874,564)           —      (9,874,564)    (9,705,275)           —        (9,705,275)
         Unexpended appropriations,
            beginning balance                  $            —        175,306       175,306              —        340,769         340,769 
         Appropriations received                            —             —             —               —             —               —
         Appropriations used                                —       (125,061)     (125,061)             —       (164,463)       (164,463)
         Appropriations transferred in/out                  —             —             —               —         (1,000)         (1,000)
         Unexpended appropriations,
            ending balance                     $            —         50,245         50,245             —        175,306         175,306 




                                                                    29                                                    (Continued)
                           UNITED STATES DEPARTMENT OF ENERGY
                          OFFICE OF ENVIRONMENTAL MANAGEMENT
                        URANIUM ENRICHMENT DECONTAMINATION AND
                                  DECOMMISSIONING FUND
                                         Notes to Financial Statements
                                         September 30, 2011 and 2010



(10) Reconciliation of Net Cost of Operations to Budget
     The objective of this information is to provide an explanation of the differences between budgetary and
     financial (proprietary) accounting. This is accomplished by means of a reconciliation of budgetary
     obligations and nonbudgetary resources available to the reporting entity with its net cost of operations.
                                                                             2011                2010
      Resources used to finance activities:
        Obligations incurred                                             $    507,324            758,008   
           Less offsetting receipts                                          (173,860)          (586,366)  
           Less spending authority from recoveries                                (22)          (142,332)  
                    Net obligations                                           333,442              29,310   
        Imputed financing from costs absorbed by others                         7,654              9,422   
        Transfers out                                                          40,413             25,096   
        Other – appropriations transferred from DOE                            33,633            463,000   
                    Total resources used to finance activities                415,142            526,828   
      Resources used to finance items not part of the net
        cost of operations:
           Change in budgetary resources obligated for goods,
              services, and benefits ordered but not yet provided             173,744            162,072   
           Resources that finance the acquisition of assets                   (53,096)           (31,357)  
           Resources that fund expenses recognized in prior periods          (656,264)          (741,788)  
           Other resources and adjustments                                      5,476                596   
                    Total resources used to finance items not part
                      of the net cost of operations                          (530,140)          (610,477)  
      Net cost of items that do not require or generate resources
        in current period:
           Increase in unfunded liability estimates                           673,233            957,527   
           Amortization of premiums and discounts on
              treasury investments                                             26,590             (9,788)  
           Other                                                             (208,774)          (109,299)  
                    Total net cost of items that do not require or
                      generate resources in current period                    491,049            838,440   
                    Net cost of operations                               $    376,051            754,791   




                                                       30
REQUIRED SUPPLEMENTARY INFORMATION
                         UNITED STATES DEPARTMENT OF ENERGY
                        OFFICE OF ENVIRONMENTAL MANAGEMENT
                      URANIUM ENRICHMENT DECONTAMINATION AND
                                DECOMMISSIONING FUND
                                   Required Supplementary Information
                                           September 30, 2011
                       Unaudited – See accompanying independent auditors’ report



Deferred Maintenance

Deferred maintenance is maintenance that was not performed when it should have been or was scheduled
to be performed and which, therefore, is put off or delayed to a future period. The United States
Department of Energy (the Department) has developed an estimate for deferred maintenance in the amount
of approximately $21 million as of September 30, 2011 for the structures and facilities at the gaseous
diffusion facilities (Diffusion Facilities) located in Oak Ridge, Tennessee; Paducah, Kentucky; and
Portsmouth, Ohio, and has determined that there is no deferred maintenance with respect to capital
equipment at the Diffusion Facilities.

The Department developed its deferred maintenance estimate for buildings and other structures and
facilities using the condition assessment survey (periodic inspections) method, except for some structures
and facilities, such as underground pipe systems, where physical barriers prevent inspection. In such cases,
a deferred maintenance estimate was developed for deficiencies identified during normal operations but not
corrected when scheduled. Where complete condition assessments were not available for all assets,
estimates were extrapolated from results of condition assessments performed for similar assets. Where
appropriate, results from previous condition assessments were adjusted to estimate current conditions.
Deferred maintenance for excess property, including structures and facilities awaiting decontamination and
decommissioning, was reported only where maintenance is needed for worker and public health and safety
concerns. In accordance with standards identified by the National Association of College and University
Business Officers, the Department has designated the acceptable operating condition standard as a Facility
Condition Index of less than or equal to 5%.




                                                       32
                                                                  IG Report No. OAS-FS-13-01

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report that would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:
                             Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
